<html>
<title> - FTO PASSPORT REVOCATION ACT OF 2015; SURVIVORS OF HUMAN TRAFFICKING EMPOWERMENT ACT; UNITED STATES-JORDAN DEFENSE COOPERATION ACT OF 2015; PROTECT AND PRESERVE INTERNATIONAL CULTURAL PROPERTY ACT; GLOBAL FOOD SECURITY ACT OF 2015; CALLING FOR THE RELEASE OF UKRAINIAN FIGHTER PILOT NADIYA SAVCHENKO; AND ENCOURAGING REUNIONS OF DIVIDED KOREAN AMERICAN FAMILIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





           FTO PASSPORT REVOCATION ACT OF 2015; SURVIVORS OF
           HUMAN TRAFFICKING EMPOWERMENT ACT; UNITED STATES-
            JORDAN DEFENSE COOPERATION ACT OF 2015; PROTECT
           AND PRESERVE INTERNATIONAL CULTURAL PROPERTY ACT;
           GLOBAL FOOD SECURITY ACT OF 2015; CALLING FOR THE
               RELEASE OF UKRAINIAN FIGHTER PILOT NADIYA
             SAVCHENKO; AND ENCOURAGING REUNIONS OF DIVIDED
                        KOREAN AMERICAN FAMILIES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

 H.R. 237, H.R. 500, H.R. 907, H.R. 1493, H.R. 1567, H. Res. 50 and H. 
                              Con. Res. 40

                               __________

                             APRIL 23, 2015

                               __________

                           Serial No. 114-55

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                               ______



                        U.S. GOVERNMENT PUBLISHING OFFICE 

94-309 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 237, To authorize the revocation or denial of passports and 
  passport cards to individuals affiliated with foreign terrorist 
  organizations, and for other purposes..........................     2
  Amendment in the nature of a substitute to H.R. 237 offered by 
    the Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................     5
H.R. 500, To establish the United States Advisory Council on 
  Human Trafficking to review Federal Government policy on human 
  trafficking....................................................     7
  Amendment in the nature of a substitute to H.R. 500 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    12
H.R. 907, To improve defense cooperation between the United 
  States and the Hashemite Kingdom of Jordan.....................    17
  Amendment in the nature of a substitute to H.R. 907 offered by 
    the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida...........................    23
H.R. 1493, To protect and preserve international cultural 
  property at risk due to political instability, armed conflict, 
  or natural or other disasters, and for other purposes..........    27
H.R. 1567, To authorize a comprehensive, strategic approach for 
  United States foreign assistance to developing countries to 
  reduce global poverty and hunger, achieve food security and 
  improved nutrition, promote inclusive, sustainable 
  agricultural-led economic growth, improve nutritional outcomes, 
  especially for women and children, build resilience among 
  vulnerable populations, and for other purposes.................    43
  Amendment in the nature of a substitute to H.R. 1567 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    57
      Amendment to the amendment in the nature of a substitute to 
        H.R. 1567 offered by the Honorable Ted Poe...............    72
H. Res. 50, Calling for the release of Ukrainian fighter pilot 
  Nadiya Savchenko, who was captured by Russian forces in Eastern 
  Ukraine and has been held illegally in a Russian prison since 
  July 2014......................................................    73
  Amendment to H. Res. 50 offered by:
      The Honorable Christopher H. Smith.........................    76
      The Honorable Gerald E. Connolly, a Representative in 
        Congress from the Commonwealth of Virginia...............    78
      The Honorable William Keating, a Representative in Congress 
        from the Commonwealth of Massachusetts...................    79
H. Con. Res. 40, Encouraging reunions of divided Korean American 
  families.......................................................    80

                                APPENDIX

Markup notice....................................................    94
Markup minutes...................................................    95
Markup summary...................................................    97
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    98
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statment of the Honorable 
  Michael M. Honda, a Representative in Congress from the State 
  of California..................................................   100
 
          FTO PASSPORT REVOCATION ACT OF 2015; SURVIVORS OF
               HUMAN TRAFFICKING EMPOWERMENT ACT; UNITED
             STATES-JORDAN DEFENSE COOPERATION ACT OF 2015;
              PROTECT AND PRESERVE INTERNATIONAL CULTURAL
            PROPERTY ACT; GLOBAL FOOD SECURITY ACT OF 2015;
              CALLING FOR THE RELEASE OF UKRAINIAN FIGHTER
                PILOT NADIYA SAVCHENKO; AND ENCOURAGING
              REUNIONS OF DIVIDED KOREAN AMERICAN FAMILIES
                              ----------                              


                        THURSDAY, APRIL 23, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order, and we 
will ask all the members to take their seat at this time.
    And pursuant to notice, we meet today to mark up several 
bipartisan measures. Without objection, all members may have 5 
days to submit statements for the record, and extraneous 
materials, on any of today's business.
    As all members were notified yesterday, we intend to 
consider today's measures en bloc. And so without objection, 
the following items previously provided to members will be 
considered en bloc and are considered as read: H.R. 237, 
<greek-l>this is  deg.the Foreign Terrorist Organization 
Passport Revocation Act, Poe Amendment 33 in the nature of a 
substitute; and then H.R. 500, the Survivors of Human 
Trafficking Empowerment Act, with Royce Amendment 34 in the 
nature of a substitute; H.R. 907, the United States-Jordan 
Defense Cooperation Act, with Ros-Lehtinen Amendment 86 in the 
nature of a substitute; H.R. 1493, the Protect and Preserve 
International Cultural Property Act; and H.R. 1567, the Global 
Food Security Act, with Smith Amendment 91 in the nature of a 
substitute, and Poe Amendment 122 to Smith Amendment 91; and 
then House Resolution 50, calling for the release of Ukrainian 
fighter pilot, Nadiya Savchenko, and the following amendments 
to House Resolution 50: Smith Amendment 31, Connolly Amendment 
36, Keating Amendment 15; and House Concurrent Resolution 40, 
encouraging reunions of divided Korean American families.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Royce. And after recognizing myself and the 
ranking member, Mr. Eliot Engel of New York, I will be pleased 
to recognize any member seeking recognition to speak on these 
measures.
    So just, if we could, this is consideration of a number of 
measures that will strengthen U.S. efforts to counter ISIS and 
support our allies in the Middle East that I will begin with 
here.
    And the first would be H.R. 907, the U.S.-Jordan Defense 
Cooperation Act of 2015. This bill recognizes the invaluable 
role of Jordan and enhances our security cooperation. It grants 
Jordan expedited congressional review of proposed U.S. arms 
transfers, status that is otherwise reserved for NATO members 
and other close allies. These benefits will be provided to 
Jordan during its time of need.
    And I want to thank Chairman Emeritus Ros-Lehtinen and Mr. 
Ted Deutch for bringing forward this timely and important 
measure.
    Then we go to H.R. 1493. This is the Protect and Preserve 
International Cultural Property Act. This committee has heard 
about how ISIS is funding its terror campaign by looting and 
selling treasures and antiquities in Iraq and Syria. The loss 
and destruction of these artifacts is a national security 
concern and an affront to cultural heritage.
    And I want to thank the ranking member for his continued 
leadership on this issue, and for authorizing this bill, the 
Protect and Preserve International Cultural Property Act, which 
will improve coordination of U.S. efforts to provide cultural 
property, to protect that cultural property, and prevent those 
artifacts removed since the start of Syria's civil war from 
being sold or imported into the United States.
    We appreciate working with the Committee on Ways and Means 
on the critical impact and on the important restrictions in 
this bill.
    Then we have H.R. 237, the FTO Passport Revocation Act. The 
flow of foreign fighters to ISIS is a serious threat. 
Regrettably, U.S. passport holders are among those who have 
joined the ranks of this and other terrorist organizations. So 
this bill, the FTO Passport Revocation Act, authored by Mr. 
Poe, provides a check to combat this threat.
    This bipartisan and common sense bill grants the Secretary 
of State the authority to revoke or deny U.S. passports to 
individuals who are members of designated foreign terrorist 
organizations, so that they cannot realize their jihadist 
intentions.
    Then we have Mr. Honda's bill, H.R. 500, Human Trafficking 
Survivors Empowerment Act. I would like to express my strong 
support for this bill. This bill will help to ensure that those 
with the most direct knowledge of human trafficking, the 
survivors, will have a voice in the anti-trafficking policy 
conversations within the U.S. Government.
    It is critical to tap the expertise and affirm the dignity 
of former victims, many of whom I have had the honor of meeting 
in Washington, D.C., and in California, and also overseas.
    So this bill will establish a U.S. Human Trafficking 
Survivors Advisory Council. It is going to be appointed by the 
President and bipartisan congressional leadership. The council 
will serve as an advisory body to the administration's senior 
policy operating group on human trafficking and as a point of 
contact for Federal agencies seeking input from human 
trafficking survivors.
    I also want to thank the National Survivor Network and the 
Coalition to Abolish Slavery and Trafficking, that is CAST, as 
the group is known, in Los Angeles, for their important work in 
advocacy.
    Then we will go to H.R. 1567, the Global Food Security Act. 
In an effort to break the cycle of dependency on U.S. 
international food aid, USAID has been investing in programs to 
accelerate agriculture-led economic growth, to help chronically 
food insecure communities become more resilient, and to improve 
child nutrition.
    The Global Food Security Act, as amended, captures the best 
attributes of this current strategy while providing a road map 
for future work. It enhances congressional oversight and forces 
greater collaboration across the many agencies engaged in food 
and agricultural assistance.
    A substantially similar measure passed the House 
unanimously last December, and I wanted to thank Mr. Smith for 
his leadership in, again, bringing the measure forward.
    House Resolution 50 calling for the release of Ukrainian 
fighter pilot Nadiya Savchenko. She was seized in July 2014 by 
Russian-backed separatists in Eastern Ukraine and forcibly 
taken to Russia where she has endured psychological abuse and 
solitary confinement.
    And then we have, lastly, House Concurrent Resolution 40 on 
the reunification of Korean American families. For over 60 
years, these families have longed for an opportunity to reunite 
with their loved ones. This resolution calls on North Korea to 
recognize their suffering and permit the reunion they have long 
desired.
    I go now to Mr. Eliot Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman, for holding this markup 
and, as always, for working with us in a bipartisan manner. I 
strongly support the seven measures that make up this en bloc 
package.
    I would like to begin by urging my colleagues to support 
H.R. 1493, the Protect and Preserve International Cultural 
Property Act. I introduced this bill with Representatives Chris 
Smith and Bill Keating, and Chairman Royce as well, and this is 
a measure that is deeply important to me.
    We have all seen horrific videos of ISIS ransacking 
historical sites in the territory they control. This is much, 
much more than the senseless destruction of irreplaceable 
treasures in Syria alone. It has happened all over the world, 
but today ISIS is trying to erase history. They are trying to 
wipe out the heritage and the culture of the people they 
oppress. Worse still, they are peddling these antiquities on 
the black market to fund their violence.
    Since World War II, the United States has led the world in 
protecting cultural property from those bent on its theft and 
destruction. We have never stood for this sort of barbarity, 
and we cannot do so now. We must respond to the ongoing crisis 
in Syria and coordinate our efforts to protect cultural 
property before the next crisis erupts somewhere else in the 
world.
    This bill would allow the administration to crack down on 
the import of looted Syrian cultural property, restrictions 
that would mirror those we have already established for Iraq 
and that would bolster steps our allies have already taken. The 
legislation would also make sure all of our Federal agencies 
are on the same page when it comes to safeguarding antiquities, 
and it would ramp up congressional oversight of what we are 
doing on that issue.
    We need to act on this problem now to cut off a critical 
source of funding for ISIS, to stand up to this brand of 
psychological warfare, and to stop those determined to destroy 
a part of the world's richest history.
    Next I would like to thank Representative Poe for 
introducing H.R. 237, bipartisan legislation to authorize the 
Secretary of State to deny or revoke passports for anyone 
associated with a foreign terrorist organization. I am deeply 
troubled by reports of Americans traveling to Syria and Iraq to 
join ISIS and other terrorist organizations.
    This situation creates the potential for attacks on U.S. 
soil when they return home. It is critical we use all of the 
tools at our disposal, including border protection and passport 
controls, to protect our country.
    I also support H.R. 1567, the Global Food Security Act, and 
I thank Representatives Smith and McCollum for taking the lead 
on this important issue. The bipartisan legislation passed the 
House last year and would authorize the Feed the Future 
Initiative championed by former USAID Administrator Raj Shah.
    In its first few years, this initiative has made a real 
difference in fighting world hunger, poverty, and malnutrition. 
This bill would strengthen this valuable program, and I urge my 
colleagues to support it.
    I also support H.R. 907, the U.S.-Jordan Defense 
Cooperation Act, legislation introduced by my friends, Ileana 
Ros-Lehtinen and Ted Deutch. Jordan faces enormous security and 
economic challenges. More than 600,000 Syrian refugees have 
spilled into the country, and ISIS is sitting on its doorstep.
    This bill would speed up the transfer of American defense 
equipment for the next 3 years. It would also authorize the 
Secretary of State to sign a memorandum of understanding with 
Jordan to increase economic and military assistance. We want to 
send a message to the Jordanian people we are with them in 
their fight against extremism.
    I also support H.R. 500, the Survivors of Human Trafficking 
Empowerment Act, which was introduced by Representative Mike 
Honda. This legislation would create a council made up of 
trafficking survivors to provide guidance and recommendations 
to Federal agencies working on human trafficking issues. Having 
the voices of survivors to help guide Federal policy, identify 
funding priorities, and offer technical assistance will improve 
our government's response to this horrific crime of modern day 
slavery.
    Next I want to thank Representative Rangel for his 
leadership and introducing H. Con. Res. 40, a resolution that 
encourages the reunion of divided Korean American families. 
Charlie Rangel, of course, was an American soldier in the 
Korean War. More than 10 million Koreans have been separated 
from family members since 1953, many of whom are now American 
citizens.
    This legislation calls on North Korea to allow Korean 
Americans to meet their family members from North Korea, and it 
takes steps to build goodwill that is conducive to peace on the 
Peninsula. I am a co-sponsor of this legislation, and I urge my 
colleagues to support it.
    And, finally, I would like to voice my support for H. Res. 
50, a resolution calling on Russia to immediately release 
Ukrainian fighter pilot Nadiya Savchenko and condemning her 
illegal captivity. Nadiya was captured by Russian-led 
insurgents in Ukraine last summer and has been held in a Moskow 
prison.
    She is a true heroine of Ukraine. Her courage and spirit 
inspire so many in her country who are struggling against great 
odds for an independent, democratic, and prosperous Ukraine, an 
independent, democratic, and prosperous future.
    I commend Representative Sandy Levin and the other members 
of the House Ukraine Caucus for introducing this measure, and I 
urge my colleagues to support us.
    I also ask unanimous consent to enter Congressman Honda's 
statement for the record for H.R. 500.
    Chairman Royce. Without objection.
    Mr. Engel. Thank you, Mr. Chairman, again, for holding this 
markup and for working with us on these measures in a 
bipartisan manner.
    Chairman Royce. Thank you, Mr. Engel.
    Do any other members seek recognition? Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce, and 
Ranking Member Engel. Thank you for holding this markup today 
and for the excellent way in which you are guiding our 
committee. Thanks to your staff as well for working with my 
staff and Mr. Deutch's office to bring up H.R. 907, the United 
States-Jordan Defense Cooperation Act of 2015.
    Ted could not be present because he has a markup at 
Judiciary, but he wanted me to express, on his behalf, his 
strong support for this legislation and his gratitude to the 
full committee for bringing it forward this morning.
    H.R. 907 is a simple, straightforward, common sense bill 
that not only helps secure U.S. national security interests, 
but also the security interests of one of our closest allies in 
the Middle East region, the Hashemite Kingdom of Jordan. Jordan 
has been on the front lines in the fight against the terror 
group ISIL, and having to deal with the humanitarian crisis 
that is ongoing as a result of the fighting in Iraq, in Syria, 
which has caused a great strain on the Kingdom.
    King Abdullah has been gracious in taking in over a million 
refugees who have fled the wrath of ISIL in Iraq and the 
fallout from the war between Assad, ISIL, and other terror 
groups. He understands that in order to defeat ISIL more 
moderate and understanding voices must refute and fight back 
the radicalized Islam of ISIL and other terror groups, and 
reclaim Islam for those who seek peace. Otherwise, the fight 
against these extremists will never end.
    And, of course, we know the horror that befell the people 
of Jordan when ISIL captured, tortured, and burned to death a 
Jordanian fighter pilot. The brutality of these extremists 
knows no bounds, and neither do their aspirations. They will 
not cease until they achieve their objectives, and that is to 
establish an Islamic caliphate, or until they are defeated and 
destroyed. This is where our bill comes in.
    Jordan has done a great job of taking the fight to ISIL, 
but the Kingdom needs more resources to bolster their 
capabilities. The U.S. and Jordan have signed a new memorandum 
of understanding that will guide our assistance to Jordan for 
the next 3 years. But what Jordan really needs now is for us to 
expedite our arms transfers and defense articles to the 
Kingdom.
    King Abdullah has stepped up to take a leading role in the 
fight, but he needs our help and has asked that we expedite 
some of these transfers, so that Jordan has the tools necessary 
to not only repel ISIL but to take the fight to the terror 
group and destroy it.
    Time is of the essence, Mr. Chairman, in the fight against 
ISIL, and we have none to spare. The U.S. must continue to 
fully support our allies in the region as much as we can, and 
this bill will signal to them that we stand ready to back them 
in their efforts to take on terror and to bring stability to a 
violence-plagued region.
    And, finally, before I yield my time, I would like the 
committee members to meet Mariella, a young lady behind us. She 
is a high school junior from Fort Worth. She is part of a 
national organization called Girls, Inc., and many of the 
female members are participating in a Take Your Daughters to 
Work Day. She is not my granddaughter, but I wish she could be. 
She is a wonderful young lady.
    Thank you, Mariella.
    Thank you, Mr. Chairman, and I----
    Chairman Royce. Thank you.
    Ms. Ros-Lehtinen [continuing]. Yield back.
    Chairman Royce. Thank you, Ileana.
    Let us see. We go now to--Mr. Keating, are you next in 
line? Do you want to be recognized?
    Mr. Keating. Thank you, Mr. Chair. I would like to move to 
strike the last word. First, I would like to thank you for the 
two amendments I had that are considered in the en bloc as one 
en bloc amendment.
    The first one is just a technical change, I believe, but an 
important one, with Congressman Levin's fine work in 
recognizing Lieutenant Savchenko's plight and heroism in 
Ukraine. And what it does is, given the Russian Federation's 
ongoing efforts to distort the legally and internationally 
recognized definition of Ukraine's sovereignty, independence, 
and territorial integrity, we changed, and I think it was 
crucial to do this, references to all parts of Ukraine simply 
as Ukraine as a whole.
    Secondly, I want to thank my colleagues, Chairman Royce, 
Ranking Member Engel, and Mr. Smith, for joining me in 
sponsoring H.R. 1493, the Protect and Preserve International 
Cultural Property Act. We have seen images of the terrorist 
organization and the group ISIL destroying cultural sites and 
artifacts in Iraq and Syria. ISIL's recent activities mirror 
the Taliban's destruction of Buddhist statues in Afghanistan in 
2001, and an al-Qaeda affiliate's destruction of tombs and 
shrines in Timbuktu, Mali, in 2012.
    These acts destroy humanity's common cultural heritage and 
are a crime against the entire international community, 
including the United States. In addition to ISIL and other 
groups, there are increasingly looting and trafficking cultural 
artifacts to finance their own terrorist operations. ISIL has 
reportedly earned millions from the plunder of antiquities, 
including $36 million from the looting in one site alone in 
Syria.
    This bill is an important step in protecting cultural 
property in Syria specifically, and coordinating the efforts of 
the United States Government in working to protect cultural 
property worldwide, and work to prevent the trafficking in 
antiquities from benefitting terrorists and other criminal 
groups alike.
    I look forward to continuing to work on this issue with the 
committee, and I want to thank my colleagues for their support.
    With that, I yield back, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Keating.
    Let us see. We go now to Mr. Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. I want to 
thank you, Chairman Royce, and Ranking Member Engel, for 
scheduling this important markup, which again evidences the 
bipartisanship and the collegiality that is so characteristic 
of this committee.
    The Global Food Security Act, H.R. 1567, I am happy to say 
has a number of co-sponsors, including prime co-sponsor Betty 
McCollum. It has been a delight to work with her and her staff, 
the ranking member of our subcommittee, Karen Bass, and you, 
Mr. Chairman, and Mr. Engel, as well as Mr. Emmer, Mr. Meadows, 
Mr. DesJarlais, and Mr. Cicilline. Thank you all for being on 
this important lifesaving legislation.
    This legislation will help provide a long-term solution, 
really, a road map to ending global hunger by authorizing and 
strengthening the existing national food security program 
coordinated by the USAID, commonly known as Feed the Future. 
This program strengthens nutrition, especially for children 
during the critical first 1,000-day window from conception to 
the child's second birthday. It is absolutely the most 
transformative time in anybody's life. And if we get it right, 
both mother and child are exponentially more healthy and will 
have healthier lives going forward.
    In essence, it is a program, this bill, that teaches a 
woman or man to fish instead of giving that person the fish. As 
such, it is economical in the long run and will likely, over 
the long term, lead to a reduction in the amount of money we 
spend on emergency food aid. Our aid is leveraged with that of 
other countries, the private sector, NGOs, and especially 
faith-based organizations whose great work on the ground in so 
many different countries impacts so many lives.
    By statutorily authorizing this existing program and 
strengthening it, which had its roots in the Bush 
administration and was formalized by President Obama, is a 
fittingly bipartisan program. We are also increasing our 
oversight by requiring the administration to report to Congress 
in a number of areas.
    As you may recall, last year we passed the Global Food 
Security Act out of the House, only to have it stall and falter 
in the Senate, so we are back. The amendment in the nature of a 
substitute, which you have before you, is in substance similar 
to what the House passed last year. And, again, it really 
speaks to the metrics, measurable goals, benchmarks, time 
tables, and, again, makes this whole program a very significant 
priority in what we do.
    I want to thank Mr. Poe for offering an amendment that 
underscores the vital importance of water, sanitation, and 
health, known by the acronym WASH in global development, and 
that amendment is now a part of this legislation. So thank you, 
Ted. Thank you, Judge.
    And I would ask unanimous consent to include the rest of my 
statement on some of the other measures.
    Chairman Royce. Without objection.
    Mr. Smith. Thank you.
    Chairman Royce. Let us see. Mr. David Cicilline of Rhode 
Island was seeking recognition.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to begin by 
complimenting you and Ranking Member Engel for calling this 
markup and for the bipartisan spirit in which all of these 
issues have been approached and strongly supporting the passage 
of each of them.
    I would like to just also take a moment to welcome two 
state legislators from Rhode Island, Senator Juan Pichardo and 
Representative Carlos Tobon, who are here and watching us, and 
just welcome them to the committee.
    And with that, I yield back.
    Chairman Royce. Thank you, Mr. Cicilline.
    Judge Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. I want to thank you and 
the ranking member for bringing up all seven of these pieces of 
legislation in a timely manner, and the efficiency for which 
the committee has worked with me and other members on these 
bills.
    One-year-old Vivek lived in a village of mud huts in India. 
When Vivek was not doing well, his mother took him to the 
doctor four times and the doctor said it was malnutrition. His 
family had enough food to eat for his young body. They had 
goats, fresh buffalo milk, and hundreds of pounds of wheat and 
potatoes. So what was the problem? The problem was water. 
Vivek's little body was spending so much of its energy fighting 
infections from the bad water that there was little left for 
brain development and growth.
    The lesson here is that you can give a child all the food 
in the world, but without clean water it will not do any good.
    My amendment to H.R. 1567 that is sponsored by the 
gentleman from New Jersey, Mr. Smith, makes clean water and 
sanitation part of the discussion when we talk about food 
security. Instead of each sector of foreign aid with its own 
stovepipe, this amendment makes sure that sectors talk to each 
other and work together.
    Last week a 23-year-old Somali American man from Columbus, 
Ohio, was charged with supporting terrorists. He was trained in 
Syria and told by a cleric to go home to the United States and 
carry out an attack against America. That is the first time we 
have caught someone who was specifically told to go back to the 
United States to attack the homeland. These Benedict Arnold 
traitors who have turned against America and joined the ranks 
of foreign radical terrorist armies should not be allowed to 
come back into the United States unless they come back in 
handcuffs.
    For these reasons, I believe H.R. 237, that is co-sponsored 
by Mr. Keating and Mr. Sherman, the Foreign Terrorist 
Organization Passport Revocation Act, is a critical bill at a 
critical time. This bill grants the Secretary of State the 
explicit authority to revoke or deny U.S. passports for 
individuals who are members of or otherwise help designated 
foreign terrorist organizations. We must stop these killers 
from coming back to the United States to do harm to Americans.
    And, lastly, human trafficking is a scourge in our society. 
It is encouraging to see that the Senate yesterday passed the 
Justice for Victims of Trafficking Act, 99 to 0. I don't know 
the last time that the Senate has agreed on unanimous 
legislation this important.
    This is very similar to the legislation that passed the 
House that I was the lead sponsor on, along with Carolyn 
Maloney from New York, along with 10 other bills regarding the 
scourge of human trafficking.
    Congress is finally coming to the realization that 
trafficking happens in our backyards, and we need to do 
something about this. Survivors' voices must be part of the 
conversation. They know best how to effectively prevent the 
fight of this modern day slavery. We must engage survivors if 
we have any chance of ending this crime and properly serving 
the victims of this dastardly deed.
    As the lead Republican on H.R. 500, the Survivors of Human 
Trafficking Empowerment Act, I have enjoyed working with 
Congressman Honda to ensure victims are empowered and their 
voices are heard on the Federal level, and I would recommend 
and ask that the two bills that I mentioned be voted on in the 
affirmative, and the one amendment be voted on in the 
affirmative along with the other pieces of legislation.
    And I will yield back.
    Chairman Royce. Thank you, Mr. Poe.
    Seeking recognition, we have Lois Frankel of Florida.
    Ms. Frankel. Thank you. Thank you, Mr. Chair, and I want to 
thank you and the ranking member, and all the members who have 
contributed to these measures, which I support, and appreciate 
that in a world full of crises that we can find so many things 
that we here can cooperate on.
    I wanted to also, like my colleague, Ms. Ros-Lehtinen, 
introduce a young lady. We actually have a miracle in the room. 
Her name is Miracle Dixon from a high school in Indiana. And I 
want to welcome you here with the Girls, Inc. program.
    And I just want to let you know that Ileana Ros-Lehtinen, 
who also has someone with her, used to be the chair of this 
committee, and chairs one of our subcommittees, because this is 
a leadership program. So this is one of our most prominent 
women leaders in the Congress, so I want you to know that. And 
the rest of us are working toward that.
    Anyway, we want to welcome you. She is an honors student, 
good grades, and wants to be a lawyer. So keep that up.
    And thank you, Mr. Chair. I yield back.
    Chairman Royce. Thank you. Thank you, Lois.
    Okay. We want to go now to Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, and I would like to 
especially thank you, Mr. Chairman, and Mr. Engel for the great 
leadership that you have provided us at this time when our 
country is confronting this ISIL threat and the terrorist 
actions overseas and the threats to our country. I think this 
committee is doing its due diligence, and I want to thank you 
very much for that.
    I support your call today for these bills to be en bloc, 
voted on en bloc and brought to the floor. I would like to just 
express a couple of concerns that I have with two bills within 
this en bloc amendment.
    And let me just--and I would like to ask Judge Poe, in your 
Passport Revocation Act, would this mean that we would revoke 
the passports for people who are here and considered terrorist 
threats while they are here? Or is it just for people who have 
gone overseas and are part of a terrorist group?
    Mr. Poe. The bill allows the State Department to revoke the 
passport of any American citizen that is a member of a foreign 
terrorist organization anyplace.
    Mr. Rohrabacher. Anyplace. Well, wouldn't we want to have 
someone who is a member of a terrorist organization either 
arrested right away and put away or--that is number one--if 
they are here domestically, rather than having them stay here 
without a passport, meaning we don't want those terrorists here 
in the United States.
    Mr. Poe. Well, you would think that the FBI would arrest 
terrorists in the United States. But the bill is primarily--you 
asked me the specific question--it includes anybody that is a 
foreign terrorist organization member. It was aimed at those 
people who leave the United States, that are radicalized in 
Syria, and then they try to come back over here and do their 
mischief. That is what the bill is aimed at.
    Mr. Rohrabacher. Well, we are--of course, I am with you 100 
percent on that. I would hope, however, we are not taking away 
the passport from someone in a terrorist organization which 
makes them stay here. We would like them--to either arrest them 
here or take them overseas.
    Mr. Poe. We would like them to go to jail.
    Mr. Rohrabacher. Yes.
    Chairman Royce. And if I could make an observation, this 
legislation also was revised, working with the FBI, in a way to 
make sure it does not intervene in their work. And it in no 
way, of course, preempts or prevents law enforcement from doing 
its job.
    But I think it is an important step to make certain that 
those who are involved in these organizations, whether they are 
arrested or not, do not have the wherewithal to travel to get 
training offshore and then return. And this, of course, would 
prevent that from happening. So your point is well founded, Mr. 
Rohrabacher.
    Mr. Rohrabacher. I don't want them coming back. I mean, 
because if we are not going to----
    Chairman Royce. Right. That is the intent behind it.
    Mr. Rohrabacher. All right. And the second thing is about 
the calling for the release of the Ukrainian fighter pilot. I 
think she is offering a great service by drawing our attention 
to the fact that there are so many people being held hostage 
and prisoner in this Ukrainian catastrophe that is going on 
with our country right now.
    And I would hope that just in the spirit of--I will be 
voting for this, but we should express our desire that it is 
not just one Ukrainian fighter pilot who happens to be a woman 
who we now can identify with, but we hope that this conflict 
ends maybe with the Minsk Agreement, which also had, as part of 
it, the release of all prisoners on both sides.
    And we should be making sure that the people of the Ukraine 
know that we are trying to promote a peace situation where all 
of the prisoners are released and they can get back to making 
sure they are rebuilding their country, rather than just 
singling out one prisoner for that.
    Chairman Royce. I think it would be a very good point, Mr. 
Rohrabacher, per the situation in Ukraine. But here is the 
difference in this particular case. This is actually a 
Ukrainian pilot. She is a Ukrainian pilot who was seized on 
Ukrainian territory, and then she was transferred to Russian 
territory. That is the difference. So she has been held in 
solitary confinement. She has been subjected to psychological 
abuse, denied access to medical treatment. And given these 
considerations, this would be the point of this particular----
    Mr. Rohrabacher. All right. I think that is a very good 
answer. Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    Mr. Grayson.
    Mr. Grayson. Thank you, Mr. Chairman. Just one brief 
comment regarding the Passport Revocation Act. The Supreme 
Court has recognized that there is a constitutional right to 
travel, and I think that that comes directly from the right of 
freedom of assembly under the First Amendment. Therefore, in my 
view--and I hope this becomes part of the record on this--I 
don't think that you can properly deny someone a passport or 
the right to travel without clear and convincing evidence.
    I yield back.
    Chairman Royce. Mr. Grayson, I think you raise a point 
here, and this is one of the reasons why this was crafted to 
provide permissive authority to the State Department per your 
concern here. And I think, given that, we can still meet that 
constitutional test, but----
    Mr. Poe. Will the chairman yield?
    Chairman Royce. Yes. I will yield to the author of the 
measure, Mr. Ted Poe of Texas.
    Mr. Poe. The Supreme Court has ruled that the State 
Department, under certain circumstances, may revoke an American 
passport.
    Mr. Grayson. Will the gentleman yield?
    Mr. Poe. Yes.
    Mr. Grayson. I understand that. I am suggesting, consistent 
with the Supreme Court's ruling, that that can be done only 
with clear and convincing evidence that that is, and should be, 
the standard of proof.
    I yield back.
    Chairman Royce. Mr. Grayson yields back.
    Any other members seeking recognition? If not, we are going 
to go to--oh, yes. I wanted to recognize Mr. Gerry Connolly of 
Virginia for 30 minutes. [Laughter.]
    Mr. Connolly. Take off your coats, everybody. Thank you, 
Mr. Chairman. I want to thank you and the ranking member for 
putting together today's markup. I am happy to support all of 
the bills in front of us. I want to thank your staffs as well 
for cooperating with us on inclusion of our amendment on H. 
Res. 50, reiterating the unqualified U.S. support for Ukrainian 
sovereignty in all respects.
    Thank you again.
    Chairman Royce. Reverse psychology. Thank you, Mr. 
Connolly.
    Mr. Connolly. I yield back my 29 minutes.
    Chairman Royce. Okay. Hearing no further requests for 
recognition, the question occurs on the items considered en 
bloc. All those in favor say aye.
    [Chorus of ayes.]
    All those opposed, no.
    [No response.]
    In the opinion of the Chair, the ayes have it, and the 
measures considered en bloc are agreed to. So, without 
objection, H.R. 1493 and House Concurrent Resolution 40 are 
ordered favorably reported, and H.R. 237, H.R. 500, H.R. 907, 
H.R. 1567, and House Resolution 50, are ordered favorably 
reported, as amended. And staff is directed to make any 
technical and conforming changes.
    Also, without objection, the Chair is authorized to seek 
House consideration of any of today's measures under suspension 
of the rules.
    And that concludes our business for today, and I want to 
thank again, Ranking Member Engel, and all of our committee 
members for their contributions and assistance in today's 
markup.
    The committee is adjourned.
    [Whereupon, at 10:44 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  

 Material submitted for the record by the Honorable Eliot L. Engel, a 
         Representative in Congress from the State of New York

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
